Audit report



Return to the USDOJ/OIG Home Page



Compliance with Standards Governing
Combined DNA Index System Activities 
Arkansas State Crime Laboratory,
Little Rock, Arkansas
GR-80-01-005
January 2001
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of compliance with standards governing Combined DNA Index System (CODIS) activities at the Arkansas State Crime Laboratory (Laboratory).  CODIS is a national computerized information repository maintained by the FBI that permits the storing, maintaining, tracking, and searching of DNA specimen information in order to facilitate the exchange of DNA information by law enforcement agencies.  Laboratories that participate in CODIS perform DNA analysis on specimens from convicted offenders or crime-scene evidence.  These laboratories use special software, provided free of charge by the FBI, to organize and manage the DNA profiles and related information.  The software also compares DNA profiles from participating laboratories and notifies the appropriate laboratories when two or more DNA profiles match.

	In addition to authorizing CODIS, the DNA Identification Act of 1994 specified several standards for laboratories that contribute profiles to the FBI National DNA Index System (NDIS); a laboratory must certify that it is performing DNA analysis in compliance with the FBI standards governing laboratory operations.  Further, a Memorandum of Understanding (MOU) is enacted between the FBI and participating state laboratories establishing the responsibilities of each party as part of CODIS.  The MOU establishes general and specific standards that are to be followed by a laboratory in order to participate in CODIS and utilize NDIS, including the upload of DNA profiles to NDIS.

	Our audit generally covered the period from the implementation of CODIS at the Laboratory in July 1998 through October 2000.  The overall objective of the audit was to determine the extent of the Laboratory's compliance with standards governing CODIS activities.  To address the overall objective, we considered:

the extent to which the Laboratory complied with the FBI NDIS participation requirements,

	the extent to which the Laboratory complied with federally legislated laboratory Quality Assurance Standards (QAS) for laboratories, and 

	the appropriateness of the Laboratory's DNA profiles contained in CODIS databases.

We found that the Laboratory complied with standards governing CODIS activities that we tested with the following exceptions.

With respect to QAS requirements, we found that:  (1) evidence and sample storage were not secured independently (although evidence and sample storage are within secured Laboratory space); (2) vials of one critical reagent were not properly labeled according to the QAS requirements; (3) Laboratory staff could not locate documentation to show that the required annual calibration of one piece of equipment had been performed in 1998; and (4) documentation of courtroom testimony monitoring for one of the Laboratory's six trained analysts could not be located.  Subsequent to audit fieldwork, Laboratory management provided us with documentation that locks had been purchased to independently secure evidence and sample storage.

	With respect to NDIS requirements, we found that, of the 71 casework profiles we reviewed, the Laboratory uploaded 11 DNA profiles to NDIS that it should not have.  All of these profiles matched the DNA profiles of the victims of each case.  The NDIS requirements prohibit laboratories from uploading DNA profiles that are unambiguously attributable to a victim or to known individuals other than the suspected perpetrator(s).  Laboratory management took immediate steps to remove the 11 inappropriate profiles from their CODIS databases and provided to us verifying documentation of such removal prior to the conclusion of audit fieldwork.  In addition, the Laboratory provided documentation of further measures taken to ensure that Laboratory analysts fully understood and complied with the relevant NDIS requirements on this issue.

The audit results are discussed in greater detail in the Findings and Recommendations section of the report.  Appendix I discusses our audit scope and methodology.  Appendix II provides the audit criteria.  Appendix III contains general background information.  Appendix IV covers the history and status of DNA testing and CODIS use at the Laboratory.